                              Office of Inspector General
                    Corporation for National and Community Service



                          Audit of Corporation for National and
                                   Community Service
                          Contract Number CNCS 94-005 with
                                   RAND Corporation

                             OIG Audit Report Number 02-06
                                    April 13,2001



                                  Financial Schedule and
                               Independent Auditors' Report

                                      For the Period
                              October 1,1994 to May 28,1998




                                        Prepared by
                                 Cotton and Company LLP
                                  333 North Fairfax Street
                                   Alexandria, VA 22314


                               Under Delivery Order Number
                               S-OPRAQ-99-D-0021-CNS 13



This report was issued to Corporation management on October 30, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than April 30, 2002, and complete its
corrective actions by October 30, 2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                CORPORATION
                              Office of Inspector General                        FOR NATIONAL
                    Corporation for National and Community Service
                                                                                 SERVICE
                Audit of Corporation for National and Community Service
                Contract Number CNCS 94-005 with RAND Corporation
                            OIG Audit Report Number 02-06


The Office of Inspector General engaged Cotton and Company, LLP to audit costs claimed
by the RAND Corporation under CNCS contract number CNCS 94-005. The audit covered
the contract period October 1, 1994 through May 28, 1998 and included procedures to
determine if costs claimed in financial reports prepared by RAND were allowable, internal
controls were adequate to safeguard Federal funds, and whether RAND had policies and
procedures adequate to ensure compliance with Federal laws, applicable regulations and
award conditions.

As a result of the work performed, the auditors are questioning $8,788 of the $2,243,247
costs claimed over the contract period. Six thousand three hundred and two dollars of the
questioned costs results from inadequate supporting documentation of other direct costs.
The report discusses this condition in detail.

CNS OIG reviewed the report and the work papers supporting its conclusions. We agree
with the findings and recommendations presented. Responses from Rand Corporation and
the Corporation for National and Community Service to this report are discussed within the
report and included in their entirety as Appendices A and B, respectively.




                                                                             Inspector General
                                                                             1201 New York Avenue, NW
                                                                             Washington, DC 20525
                                 Office of Inspector General
                       Corporation for National and Community Service



                   Audit of Corporation for National and Community Service
                   Contract Number CNCS 94-005 with RAND Corporation
                               OIG Audit Report Number 02-06

                                        CONTENTS

                                                                               Page

Transmittal Letter                                                               1

Results in Brief                                                                 2

Independent Auditors' Opinion                                                    4

Schedule of Contract Costs                                                       6

Independent Auditors' Report on Compliance                                       10

Independent Auditors' Report on Internal Control Structure                       14

RAND Corporation's Response                                                  Appendix A

The Corporation's Response                                                   Appendix B
                                                    auditors + advisors
[)AVII)                r i , CFE, CGFM + CHARI-ES
           L C o ~ ~ o CPA,                            CPA, CFE, ClSA + MICHAII W GII I ~ w tCPA,
                                                HAYWARI),                                     ,   CFE + CAT HER IN^ L NOCIKA, CPA
                             h4xr"r'~~w
                                      H JOHNSON,
                                              CPA, CCFM   SAM HAIXLY,CI'A, C U M 4 Col FTTI Y WILSON,  CPA




                                                          April 13,2001


      Inspector General
      Corporation for National and Community Service


             We audited costs claimed by RAND Corporation to the Corporation for National and
      Community Service under Contract No. CNCS 94-005 for the period September 26, 1994,
      through May 28, 1998. The Corporation awarded Contract No. CNCS 94-005 for the period
      October 1, 1994 to May 28, 1998, including pre-award costs incurred on or after September 26,
      1994. Under this cost-plus-fixed-fee contract, RAND performed evaluations of the Learn and
      Serve America: Higher Education Program.

              The audit objectives were to determine if: (1) costs claimed were allowable and incurred
      for actual contract effort, adequately supported, and charged in accordance with RAND'S cost
      accounting system, contract terms, applicable laws and regulations including the Federal
      Acquisition Regulation (FAR), and applicable cost accounting standards; (2) RAND complied
      with contract terms and conditions; and (3) RAND'S accounting system and system of internal
      accounting control were adequate for contract purposes.

                We performed the audit in accordance with generally accepted auditing standards and
          Government Auditing Standards issued by the Comptroller General of the United States. These
      standards require that we plan and perform the audit to obtain reasonable assurance about
      whether amounts claimed against the contract, as presented in the Schedule of Contract Costs,
      are free of material misstatement. An audit includes examining, on a test basis, evidence
      supporting amounts and disclosures in the Schedule. An audit also includes assessing accounting
      principles used and significant estimates made by the auditee, as well as evaluating overall
      financial schedule presentation. We believe our audit provides a reasonable basis for our
      opinion.

                  RAND'S response is in Appendix A, and the Corporation's response is in Appendix B.
                                     RESULTS IN BRIEF

Costs Claimed

      We have identified $8,788 of questioned costs under the contract, as described in the
Schedule of Contract Costs:

              $35 for 2 direct labor hours not supported by timesheets.

              $(586) for 24 unbilled direct labor hours.

              $(251) of fringe benefits applicable to questioned direct labor hours.

              $723 for contract salaries not supported by a personal service agreement.

              $2,605 of travel costs not supported by adequate source documentation.

              $52 of travel costs exceeding the daily per diem limit set by the Federal Travel
              Regulations.

       0       $6,302 of other direct costs not supported by adequate source documentation.

               $(92) of indirect costs applicable to questioned consultant and labor hours.

       The Schedule of Contract Costs provides additional information on these questioned costs
based on audit results. RAND had costs incurred in excess of costs billed, therefore we are
recommending no net questioned costs.

Compliance

        The results of our compliance testing disclosed two instances of noncompliance for which
we are recommending corrective action. First, RAND claimed travel costs that were unallowable
in accordance with contract terms and conditions and the FAR. Second, RAND did not support
all claimed costs with adequate source documentation.

Internal Control

       We noted a matter involving RAND'S internal control structure and its operations that we
consider a reportable condition under standards established by the American Institute of Certified
Public Accountants. RAND did not provide documentation supporting claimed consultant,
travel, and other direct costs billed to the Corporation. RAND did not provide documentation
such as original employee timesheets, invoices, or its general ledger for travel and other direct
costs billed.

                                            COTTON & COMPANY LLP



                                            Sam Hadley, CPA, CGFM             /
                                   auditors advisors



                                        April 13,2001


Inspector General
Corporation for National and Community Service


                         INDEPENDENT AUDITORS' OPINION

       We audited costs claimed by RAND Corporation to the Corporation for National and
Community Service under Contract No. CNCS 94-005 for the period September 26, 1994,
through May 28, 1998. The Corporation awarded Contract No. CNCS 94-005 for the period
October 1, 1994 to May 28, 1998, including pre-award costs incurred on or after September 26,
1994. Costs claimed are summarized in the Schedule of Contract Costs. Costs claimed
summarized in this schedule are the responsibility of RAND management. Our responsibility is
to express an opinion on costs shown in the schedule based on our audit.

        We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance that the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting amounts and disclosures in the financial schedules. It also includes
assessing accounting principles used and significant estimates made by management, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion on costs claimed.

       The Schedule of Contract Costs is intended to present allowable costs incurred under the
contract in accordance with the FAR and contract terms and conditions. Therefore, it is not
intended to be a complete presentation of RAND Corporation's revenues and expenses.

       In our opinion, the Schedule of Contract Costs referred to above presents fairly, in all
material respects, costs claimed by RAND for the audit period October 1, 1994, through May 28,
1998, including approved pre-award costs incurred on or after September 26, 1994, in conformity
with the FAR and contract terms and conditions.

       In accordance with Government Auditing Standards, we have also issued reports dated
April 13, 2001, on our consideration of RAND'S internal control structure and on its compliance
with laws and regulations.
       This report is intended solely for the information and use of the Office of Inspector
General, the Corporation for National and Community Service, and RAND management and
should not be used by anyone other than these specified parties.

                                            COTTON & COMPANY LLP


                                      By:      L?-     /7                   1


                                                                              ,&
                                            Sam Hadley, CPA, CGFM             /
FINANCIAL SCHEDULE
                 SCHEDULE OF CONTRACT COSTS

  Corporation for National and Community Service Contract with
                       RAND Corporation
                   Contract No. CNCS 94-005

             September 26,1994, through May 28,1998


                          Claimed Cost   Questioned Costs   Notes

Direct Salaries
Fringe Benefits
Contract Salaries
Travel
Subcontract
Other Direct Costs
Computing
Indirect Costs

Subtotal                  $2,262,044        $8,788

Less Costs Incurred In
Excess of Costs Claimed      (1 8,797)       (8,788)

Total Costs Claimed       $2,243.247        u
               NOTES TO THE SCHEDULE OF CONTRACT COSTS

1.   We questioned $(55 1) of claimed direct labor as follows:

     a.     RAND billed $35 for 2 direct labor hours not supported by timesheets. RAND
            billed CNS for 88 hours, and the employee recorded only 86 hours on the
            timesheet.

     b.     RAND did not bill the Corporation for $586 of direct labor costs. RAND claimed
            16 hours of direct labor for an employee in one reporting period, however the
            employee recorded 40 hours on the timesheet.

     We questioned the net of $(551) in accordance with FAR 31.201-2, Determining
     allowability, which requires that claimed costs be supported by adequate records. We did
     not expand the number of sample items originally selected, due to the immateriality of
     audit results.

2.   We questioned fringe benefits of $(251) allocable to questioned direct labor costs of
     $(55 l), calculated as follows:

                                Questioned       Fringe           Questioned
              Fiscal Year      Direct Labor    Benefit Rate      Fringe Benefits
              1996                 $ 35          45.151%            $ 16
              1998                  (586)        45.546              (267)
              Total               $(551)                            $(251)



3.   RAND billed $723 in 1996 for consultant costs claimed not supported by a personal
     service agreement. In accordance with FAR 31.205-33, Consulting costs, claimed costs
     must be supported by signed personal service contracts that document the scope of work
     to be performed and the daily or hourly rate to be paid. In addition, RAND could not
     provide an invoice or other documentation to support actual hours or days worked.

     We did not expand the number of sample items originally selected for the following
     reasons:

                      We noted only one occurrence of unsupported costs in our sample. RAND
                      representatives stated that contracted salary agreements are always
                      maintained to support claimed costs, but the agreement for the sampled
                      consultant had been filed in a different box than indicated on its records.
                    RAND receives an annual audit in accordance with Office of Management
                    and Budget (OMB) Circular A- 133. This audit coverage includes contract
                    costs sampled for allowability, allocability, and proper documentation. We
                    reviewed the Circular A-133 audits performed over the contract period and
                    noted no findings related to unallowable contract costs or inadequate
                    supporting documentation.

4.   We questioned $2,605 of travel costs as follows:

     a.     RAND could not support 2 airfares ($1,190 in July 1996 and $81 1 in July 1998).
            We questioned $2,001 of claimed airfare costs not supported by adequate source
            documentation, in accordance with FAR 31.201-2, Determining allowability.

     b.     We questioned $604 of travel costs claimed from one employee's expense
            voucher, because RAND could not provide the requested expense voucher or
            other supporting documentation ($604 in July 1998), in accordance with FAR
            3 1.201-2, Determining allowability.

     We did not expand the number of sample items originally selected for the following
     reasons:

            0       Questioned costs are the result of missing documentation. During our
                    audit, RAND had difficulty retrieving documentation for requested sample
                    items due to the age of the samples and RAND'S small staff size. RAND
                    representatives stated that supporting documentation was maintained, but
                    retrieving files was very time consuming, and they could not devote any
                    more staff time to finding the documentation. They selected the larger
                    sample items and retrieved the documentation.

                    As discussed in Note 3, RAND receives an annual OMB Circular A-133
                    audit, whereby the auditors test allowability and allocability of sampled
                    contract costs.

     Without adequate supporting documentation, we were unable to determine the
     allowability of costs claimed in accordance with FAR 3 1.201-2, Determining
     allowability. In addition, FAR 52.215-2, Audit and Records-Negotiation, Section (0,
     Availability, states that the contractor is to make available at its office at all reasonable
     times the records, materials, and other evidence for examination, audit, or reproduction
     for three years after final payment under a contract.

     c.     We questioned $52 of claimed travel costs exceeding the maximum daily limit
            allowed by the Federal Travel Regulations (FTR). According to FAR 31.205-46
            (a), Travel costs, costs incurred for lodging, meals, and incidental expenses will
            be considered reasonable and allowable only to the extent that they do not exceed
            on a daily basis the maximum per diem rates in effect at the time of travel as set
            forth in the FTR.
           We selected a sample of 28 travel transactions which totaled $18,380, and noted
           that three transactions included costs of $52 that exceed the FTR. We did not
           expand our sample of claimed travel costs due to the immateriality of total
           claimed travel costs ($61,210). Additional sample items would not result in a
           material amount of additional questioned costs.

5.   We questioned $6,302 of other direct costs. RAND did not provide supporting
     documentation for 12 of 30 sampled items. We did not expand the number of sample
     items originally selected for reasons stated in Note 4.

6.   We questioned $(92) of claimed indirect costs applicable to questioned direct labor,
     fringe benefits, and contract salaries as calculated below:

                            Questioned      Overhead       Questioned
             Fiscal Year    Direct Costs      Rate        Overhead Costs
             1996              $774           78.576%         $608
             1998              (853)          82.001          (700)
             Total             &42)                           $422)
INDEPENDENT AUDITORS' REPORTS ON COMPLIANCE
      AND INTERNAL CONTROL STRUCTURE
            COTTON VCOMPANY LLP
                                                 auditors           +   advisors




                                                          April 13, 2001


Inspector General
Corporation for National and Community Service


               INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

       We audited costs claimed by RAND to the Corporation for National and Community
Service under Contract No. CNCS 94-005 for the period September 26, 1994, through May 28,
1998, and have issued our report thereon dated April 13, 2001. The Corporation awarded
Contract No. CNCS W-005 for the period October 1, 1994, to _May 23, 1998. iriclliding approved
pre-award costs incurred on or after September 26, 1994.

       We conducted our audit in accordance with generally accepted audiiiiig standards and
Government Auditing Standards issued by the Comptroller General of the bnited States. These
standards require that we plan and perform the audit to obtain reasonable assurance that fir~ancia!
schedules are free of material rnisstateme~zt..

        Compliance with applicable laws and regulations related to the contract i::.the
responsibility of RAND'S management. As part of obtaining reasonable assurance that costs are
free of material misstatements, we performed tests of compliance with certain pro\isions of laws
and regulations related to the contract. Our objective was not, however, to provide an opinion on
overall compliance with such provisions. Accordingly, we do not express such an opinion.

       The results of our compliance testing regarding claimed costs disclosed the following
nonmaterial instances of noncompliance that are required to be reported under Government
Auditing Standards:

1.     As discussed in the Notes to the Schedule of Contract Costs, RAND claimed direct labor,
       contract salaries, other direct costs, and travel, not adequately supported in accordance
       with contract terms and conditions and the FAR. RAND stated it did not provide
       supporting documentation for all requested sample items, because it has limited staff to
       retrieve documentation.

       Recommendation: We recommend that the Corporation request RAND to maintain all
       documentation to support claimed costs and provide documentation upon request.


                                                              established   19x1


                          333 NOKIH       FAIRFAXSTKFFT+ s ~ T I B o I + ALIXANIIKIA VIKCJNIA            2 2 3 14
                7031836 6 7 0 1 + I A X 7031836 0 9 3 1 + W W W C 0 1 T O N C I ' A ( 0 \ 1 I)COITONC~~(  O l 7 O N C PA C O h l
RAND's Response: RAND noted that the unsupported items were low-dollar items
going back several years. RAND considered the administrative costs of searching for
support for these items to be burdensome, and RAND did not provide these items. Its
representatives further noted that it will no longer be claiming these costs.

Further, RAND noted that it is subject to four main audits by outside independent entities,
including the OMB Circular A-133 audit, incurred cost claim audit, and a Cost
Accounting Standards audit. The costs claimed would have been subject to audit in each
of the years covered by this audit, and the scope of this audit (allowability, allocability,
and proper documentation) would be covered in those audits.

Finally, RAND noted that OMB Circular A-133, Subpart B, Section .215, states that "An
audit made in accordance with this part shall be in lieu of any financial audit required
under individual Federal awards.. .Any additional audits shall be planned and performed
in such a way as to build upon work performed by other auditors." RAND noted that it
has concerns that there was not enough audit coordination between Cotton & Company
auditors and its independent auditors; RAND noted that Cotton & Company did request
permission to contact the independent auditors toward the end of the audit.

Auditors' Response: The unsupported items do relate to small-dollar items dating back
several years. RAND's record retention obligations are not, however, diminished as
claimed contract costs age.

Additionally, as noted by RAND, an OMB Circular A-133 audit is to be relied upon to
the extent the audit meets a Federal agency's needs. During the planning phase of our
audit, we determined that CNS funds had not been selected as a major program in any of
the years covered by our audit, and that the nature of programs selected as major
programs in those years was not similar in nature to CNS funds. We did incorporate the
internal control and compliance work done by other auditors, but could not rely on that
audit to meet the needs of CNS.

Finally, RAND is mistaken when noting that Cotton & Company did not request to
contact the independent auditors until the end of the audit. Our first step in the planning
phase of this audit was to contact the Defense Contract Audit Agency and discuss its
audit scope of RAND. It was that auditor who noted that DCAA had never audited CNS
funds. In addition, we met with DCAA during our first day of fieldwork in December
2000. During that meeting, DCAA noted that several of the indirect rates applied to the
CNS contract are not reviewed by DCAA, because they were not applied in the contracts
that were the focus of DCAA's work. Also during our second stage of fieldwork in
January 2001, we attempted to contact both independent audit entities with no success.
Documentation of our conversations and attempted contacts is included in our
workpapers.

Corporation's Response: The Corporation agrees with the costs questioned in
accordance with the FAR, but does not agree with the net questioned costs of $0, because
RAND had $18,797 of costs incurred in excess of costs claimed, which exceeded
questioned costs of $8,788. The Corporation thinks that costs incurred in excess of costs
     claimed are unallowable per FAR 31.201-2 (a) (4), because RAND is not entitled to
     reimbursement for costs incurred in excess of the contract terms. Therefore, costs
     incurred in excess of contract terms cannot be used to offset specifically unallowable
     costs. The Corporation has discussed the repayment of these costs with RAND.

     The Corporation also stated that the audit report does not address whether the claimed
     indirect cost rates used to calculate claimed costs were based on DCAA-approved indirect
     rates. The Corporation needs this information to close out the contract.

     Auditors' Comments: Costs incurred in excess of costs claimed are otherwise allowable,
     they are simply not claimed. As the Corporation noted, RAND is no longer claiming the
     expressly unallowable costs; it does, however, still have incurred allowable costs in
     excess of amounts claimed. All costs incurred were included in the scope of our review,
     and only $8,788 was found to be unallowable, leaving $2,253,256 of allowable costs.
     RAND should be reimbursed for incurred costs up to the contract ceiling of $2,243,247.
     Additionally, because all incurred costs were included in the audit scope, it is possible
     that some or all of the questioned costs of $8,788 were not actually claimed, because they
     were included in the $18,797 of costs that exceeded the contract ceiling.

     The audit report does not typically describe how claimed costs were calculated; rather, it
     provides discussion on any questioned costs, noncompliance, and internal control
     weaknesses. RAND applied several indirect cost rates in its claim that were not reviewed
     by DCAA. For those rates audited by DCAA, we determined that the DCAA-approved
     rates were used. For those rates not reviewed by DCAA, we determined the nature of the
     rate, assessed the adequacy and allocability of the rate to the claim, and determined that
     the application of the rates was proper.

2.   RAND claimed travel costs that exceeded Federal Travel Regulations (FTR) limits.
     RAND's travel policy recognizes the limits imposed by the FTR and complies with them.
     RAND representatives could not explain why costs that exceeded FTR limits were
     allowed and recorded as an allowable contract cost. Additionally, we could not determine
     why the annual OMB Circular A-133 audit did not disclose this noncompliance.

     Recommendation: We recommend that the Corporation direct RAND to limit claimed
     costs to those that are allowable under applicable cost principles and contract provisions.

     RAND's Response: RAND noted that the disallowed costs relate to trips that did not
     involve an overnight stay. To prevent recurrences, RAND management will emphasize
     training and education for the finance personnel involved with implementing FAR
     regulations related to this issue.
       We considered the above instances of noncompliance in forming our opinion on whether
RAND'S costs claimed under the contract for the period September 26, 1994, through May 28,
1998, are presented fairly, in all material respects, pursuant to contract terms and conditions and
FAR. This nonmaterial instance of noncompliance does not affect our report on claimed costs.

       This report is intended solely for the information and use of the Office of Inspector
General, the Corporation for National and Community Service, and RAND management and
should not be used by anyone other than these specified parties.

                                               COTTON & COMPANY LLP


                                         By:
                                               Sam A. Hadley, CPA, C G ~ M        1
                                                 auditors + advisors
      L C o n o h CPA CFF CCFM 4 C~IARI
II~v~vlu                                          CPA CFE ClSA 4 h l l c ~ a t W
                                       t s HA'~WARI)                           l C d l i w t CPA C F E 4 CATH~KINI
                                                                                                                 L NO( t ~h C PA
                             H JOIINWN CPA CC,Fhi + SAVHADL~I ( PA CGFM 4 C ~t r rIF Y WII <(IN CPA
                     ~~ATTIILW

                                                       April 13,2001


    Inspector General
    Corporation for National and Community Service


       INDEPENDENT AUDITORS' REPORT ON INTERNAL CONI'MOE STRUCTURE

           We audited costs claimed by RAND to the Corporation for National and Community
    Service under Contract No. CNCS 94-005 for the period September 26, 1094, through May 28,
    1998, and have issued our report thereon dated April 13, 2001. The Corporation awarded
    Contract No CNCS 94-005 for the period October 1, 1994, to May 28, '1998. including
    approved pre-award costs incurred on or after September 26, 1994.

           We conducted our audit in accordance with generally accepted auditing standards and
    Government Auditing Standards issued by the Comptroller General of the United States. These
    standards require that we plan and perform the audit to obtain reasonable dssurance that financial
    schedules are free of material misstatement.

            RAND'S management is responsible for establishing and maintaining an internal control
    structure. In fulfilling this responsibility, estimates and judgments by management are required
    to assess expected benefits and related costs of internal control structure policies and procedures.
    The objectives of an internal control structure are to provide management with reasonable, but
    not absolute, assurance that assets are safeguarded against loss from unauthorized use or
    disposition, and that transactions are executed in accordance with management's authorization
    and recorded properly to permit the preparation of financial schedules in accordance with
    generally accepted accounting principles. Because of inherent limitations in any internal control
    structure, errors or irregularities may nevertheless occur and not be detected. Also, projection of
    any evaluation of the structure to future periods is subject to the risk that procedures may become
    inadequate, because of changes in conditions or that the effectiveness of the design and operation
    of policies and procedures may deteriorate.

            In planning and performing our audit, we obtained an understanding of RAND'S internal
    control structure. We obtained an understanding of the design of relevant policies and
    procedures and whether they had been placed in operation, and we assessed control risk to
    determine our auditing procedures for the purpose of expressing an opinion on claimed costs and
    not to provide an opinion on the internal control structure. Accordingly, we do not express such
    an opinion.


                                                          established   1981
        We noted a matter involving the internal control structure and its operation that we
consider a reportable condition under standards established by the American Institute of Certified
Public Accountants (AICPA). Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control structure that,
in our judgment, could adversely affect an organization's ability to record, process, summarize,
and report financial data consistent with the assertions of management in the financial schedules.
The reportable condition is as follows:

1.     RAND did not provide documentation supporting all travel, and other direct costs billed
       to the Corporation. RAND did not provide support, such as invoices, or its general
       ledger, for travel and other direct costs billed. FAR 52.215-2, Audit and Records-
       Negotiation, Section (0,   Availability, states that the contractor is to make available at its
       office at all reasonable times the records, materials, and other evidence for examination,
       audit, or reproduction for three years after final payment under a contract.

        Recommendation: We recommend that the Corporation direct RAND to retain all
        documentation supporting costs billed in accordance with the FAR.

        RAND'S Response: RAND notes that its internal controls were audited by independent
        agencies for the contract period, and no findings of unallowed costs or inadequate
        documentation were noted. RAND further notes that it has an extensive set of policies,
        procedures, and practices designed to provide reasonable assurance that assets are
        safeguarded, and transactions are executed and recorded properly. RAND considers the
        combination of these policies and the external audits to be adequate to maintain good
        internal controls. Finally, RAND stated that it has and will continue to perform
        independent compliance testing or review functions where it has determined that
        improvements are appropriate.

        Auditors' Response: We agree that RAND has internal controls to safeguard assets and
        properly record transactions; we continue to recommend, however, that RAND revise its
        recordkeeping procedures to provide all necessary supporting documentation in
        accordance with Federal requirements.

        A material weakness is a reportable condition in which the design or operation of one or
more of the specific internal control elements does not reduce to a relatively low level the risk
that errors or irregularities in amounts that would be material in relation to the financial
statements being audited occurred and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Our consideration of the internal control
structure would not necessarily disclose all matters in the internal control structure that might be
material weaknesses under standards established by AICPA. In our opinion, the condition
described above is not a material weakness.
       This report is intended solely for the information and use of the Office of Inspector
General, the Corporation for National and Community Service, and RAND management and
should not be used by anyone other than these specified parties.

                                          COTTON & COMPANY LLP



                                          Sam Hadley, CPA, CGFM           /
  APPENDIX A

RAND'S RESPONSE
RAND


   September 27,2001




   Ms. Luise S. Jordan
   Inspector General
   Office of Inspector General
   1201 New York Avenue, NW
   Washington, D.C. 20525

   Reference: Audit Report No. 01-29

   Dear Ms. Jordan,

   Below is RAND'S response to the Inspector General's audit findings contained in the
   above-referenced report.

   1. Schedule of Contract Costs

   The audit included the substantive testing of low dollar items relating back several
   years. Because the administrative costs of searching for the final remaining items
   became burdensome, RAND did not provide these items. Therefore, RAND will not
   claim them.

   RAND is already subject to four main audits by outside independent entities. These
   include the A-133, incurred cost claim and CAS audits performed by
   PricewaterhouseCoopers ("PWC") and the Defense Contract Audit Agency ("DCAA").
   The costs claimed would have been subject to audit by these entities in each of the years
   covered by the Inspector General's audit. As noted in the report, the audits' coverage
   includes contract costs sampled for allowability, allocability, and proper documentation
   covered under the Corporation for National and Community Service contract period.
   There were no findings related to unallowable contract costs or inadequate supporting
   documentation in these audits.




1700 M a ~ nStreet, PO Box 2 138
Santa Monica, CA 90407-2138
TEL: 310.393 041 1
FAX: 3103934818
RAND

Ms. Luise S. Jordan                       -2-                      September 27,2001


Pursuant to the Single Audit Act, OMB Circular A-133, Subpart B, section ,215 states,
"An audit made in accordance with this part shall be in lieu of any financial audit
required under individual Federal awards. To the extent this audit meets a Federal
Agency's needs, it shall rely upon and use such audits.. . Any additional audits shall be
planned and performed in such a way as to build upon work performed by other
auditors." RAND has some concerns that there was not enough coordination between
the auditors and PWC or DCAA, which may have expedited some of the audit work.
The auditors did request to contact PWC and DCAA towards the end of their audit.

2. Compliance

   a. Supporting Documentation

   As discussed above, RAND is audited by many outside entities and the audits that
   were performed at the time the costs were incurred did not find that costs were not
   adequately supported or that documentation was not provided upon request.

   b. Travel Costs

   The $52 of disallowed costs relate to reimbursements paid for trips completed in one
   day that did not involve an overnight stay. RAND management will emphasize
   training and education of the finance personnel involved with implementing the
   FAR regulations related to compliance with the questioned travel costs allowed by
   the Federal Travel Regulations in order to prevent recurrences in this area.

3. Internal Controls

RAND'S internal controls were audited by outside independent entities, including PWC
and DCAA, for the contract period and no findings of unallowable contract costs or
inadequate supporting documentation were noted. RAND has an extensive set of
polices, procedures and practices designed to provide reasonable assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that transactions
are executed in accordance with management's authorization and recorded properly to
permit the preparation of financial statements in accordance with generally accepted
accounting principals. RAND considers the combination of these policies and
procedures and the scope of the external independent audits to be adequate to maintain
good internal controls.
RAND

Ms. Luise S. Jordan                        -3-                     September 27,2001


Notwithstanding the above, RAND has and will continue to perform its own
independent compliance testing or review of certain functions where RAND has
determined that it is appropriate in order to make improvements.

RAND is very appreciative of the opportunity to respond to the draft Inspector General
audit report and believes that such a process is in the best interests of the government
and of RAND, especially when the exchange can clarify and narrow or eliminate
differencesof opinion about the matters under audit.

If you have any questions, please do not hesitate to contact me at 310-393-0411,
extension 7161.

Sincerely,




Mary Colombo
Director, Special Projects and Financial and
  Regulatory Reporting



cc:    Steve Larson, CNCS
       Kathy Leone, IG
       Sam Hadley, Cotton and Company
       Ken Krug, RAND
       Lisa Neufeld, RAND
       APPENDIX B

THE CORPORATION'S RESPONSE
                                                                 CORPORATION

                                                                 FOR NATIONAI.




   MEMORANDUM

   DATE:                  September 26,2001
                                                                                                             OFFICE OF THE
                                                                                                           INSPECTOR GENERAL      I
   TO:                    Luise Jordan, Inspector General
                                  3              a4-a
   THRU:

   FROM:                  Stephen R. Larson, Audit Resolution Manager - OIG Report No. 01-29

   SUBJECT:               OIG Draft Report No. 01-29 Audit of Contract Number CNCS 94-005 with
                          RAND Corporation.


          We have reviewed the draft Office of Inspector General (OIG) audit report of the
   Corporation's contract with RAND Corporation and have provided comments on our preliminary
   conclusions on questioned costs, and internal control/compliance issues as discussed below.

           Questioned Costs on Contract Number CNCS 94-005: We concur with the overall
   finding that RAND Corporation did not provide adequate support documentation for $8,788 of
   questioned labor, applicable indirect costs, travel costs, and other direct costs noted in the audit
   report. In accordance with FAR 52.215-2 "Audit and Records" the contractor shall maintain and
   the Contracting Officer or authorized representative shall have the right to examine and audit all
   records and other evidence sufficient to reflect properly all costs claimed directly or indirectly in
   performance of this contract." This clause further states that the contractor shall make these
   records available until 3 years after final payment under this contract. Ms. Mary Colombo,
   Director Special Projects and Financial Regulatory Reporting, in a September 19, 2001
   memorandum stated "that at a certain point in the audit, the administrative costs to RAND
   outweighed the benefits of searching for the remaining items. Therefore, RAND will not claim
   them." Based on the audit report findings and contractor's statement above we find the $8,788
   of costs to be unallowable in accordance with FAR 3 1.201-2 "determining allowability."

          Contract Modification Number 4 dated September 13, 1996 increased the estimated costs
   to $2,243,247 and fixed fee to $163,095. The total estimated costs plus fixed fee or ceiling on
   the contract was increased to $2,406,342. Review of the contractor's Voucher Number 49 Final
   dated May 21, 1999 showed the contractor's actual cumulative costs incurred to be
   $2,262,044.13. Further review of this voucher shows that the contractor did not claim
   $18,797.13 of costs that were in excess of the estimated costs of $2,243,247. These costs of
   $18,797.13 are not allowable in accordance with FAR 3 1.201-2(a)(4) "terms of the contract",
   because the estimated costs of $2,243,247 is a ceiling on reimbursement for allowable costs. The
   contractor properly did not claim costs in excess of contract terms on their billings to the
   government. We do not agree with the total questioned costs of $0.00 shown on Page 6 of the



NATIONAL SERVICE: GETTING THINGS DONE                                             1201 New York Avenue, N W . Washmgton, D C 20525
              . Lturn und h n i Anztnicl . Vul~onulStnwr
A m ~ n C o t p                                            S i r , I L L (rirp\                        -
                                                                                  telephone 202-606-5000 webs~tewwwnatlonalser\~ceorg
audit report, because the $1 8,797 of excess costs are unallowable per FAR 3 1.20 1-2(a)(4), and
the contractor is not entitled to reimbursement for costs incurred in excess of the contract terms.
The $8,788 of questioned costs shown in the audit report was either not adequately supported or
specifically unallowable per FAR clauses. The $18,797 of costs incurred in excess of the
contract terms cannot be used to offset specifically unallowable costs of $8,788 with the net
questioned costs of $0.00. The correct questioned costs should be $8,788, because these costs
are specifically unallowable as addressed in the audit report, and are not challenged by the
contractor. We paid the contractor a total of $2,406,432 through Voucher Number 49 consisting
of $2,243,247 of costs plus the fixed fee of $163,095. Based on the results of the audit report the
contractor is not entitled to $8,788 of costs that were not adequately supported or specifically
unallowable, therefore we will request the contractor to repay this amount prior to closing out the
contract. We discussed this repayment of unallowable costs with Ms. Mary Colombo on
September 26,2001, and she understands our position that one unallowable cost can not be used
to offset another unallowable cost.

        The OIG audit report shows $233,466 of fringe benefits, and $71 1,899 of other indirect
costs claimed on our contract. This is a cumulative number and there is no breakdown in the
audit report indicating the indirect costs and rate used by fiscal year. There are also no
comments in the OIG audit report indicating that the contractor's claimed costs shown on the
Schedule of Contract Costs on page 6 are based on the DCAA audit determined indirect rates for
fiscal years 1994 - 1998. Based on discussion with Ms. Mary Colombo on September 26,2001
the detailed breakdown of direct and indirect costs by fiscal year and the DCAA audit
determined indirect rates was provided to the Cotton & Company auditor. Therefore, the audit
report should be revised to state whether the contractor's claimed indirect costs shown on Final
Voucher No. 49 are based on using the DCAA audit determined indirect rates. We need this
information prior to closing out the contract.

        Internal Control and Comr>lianceIssues: I contacted DCAA to determine the adequacy
of relevant accounting billing, timekeeping, and related systems applicable to billing of costs on
government contracts. I reviewed the Organization and Systems Section of the Fiscal Year 2000
A-133 (incurred costs) audit report dated June 22, 2001 to determine the current status of
relevant internal controls and systems. This review revealed that DCAA has found the
Contractor's accounting, labor accounting systems, and Indirect and ODC Systems and related
policies and procedures to be inadequate in part based on the system audits performed by DCAA.
DCAA is the Cognizant audit agency and is responsible for following up on the discrepancies
summarized above. We do not have a current contract with RAND Corporation. Therefore, we
do not intend to give RAND Corporation any additional comments on the adequacy of their
internal control systems. Before awarding any new contracts to RAND Corporation we will
contact DCAA to determine the adequacy of the applicable accounting, timekeeping, and billing
systems.
cc:   Terry Bathen
      Kathy Leone
      Bill Anderson
      Peg Rosenberry
      Simon Woodard
      Steve Larson
      Wilsie Minor
